IN THE SUPREME COURT OF THE UNITED STATES

MALIK TIMBERS,
Petitioner,

CASE # _____________________

v.
UNITED STATES OF AMERICA,
Respondent.
______________________________/
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, MALIK TIMBERS, by and through undersigned counsel, respectfully
moves the Court in accordance with Supreme Court Rule 39, to grant the Petitioner leave to
proceed in forma pauperis to file the concurrently submitted Petition for a Writ of Certiorari
without prepayment of costs. The Petitioner has previously been granted forma pauperis status,
and a copy of the paperless order appointing the undersigned as CJA counsel is appended hereto.
Respectfully submitted,
JOFFE LAW, P.A.
Attorney for Defendant
110 SE 6th Street
Suite 1700
Fort Lauderdale, Florida 33301
Telephone:
(954) 723-0007
Facsimile:
(954) 723-0033
By____________________________
/s/
DAVID J. JOFFE, ESQUIRE
FLORIDA BAR NO. 0814164

1

CERTIFICATE OF SERVICE
I, David J. Joffe, CJA appointed counsel for the above Petitioner, do hereby certify that a
true and correct copy of this motion was duly served on the United States by placing same in the
U.S. Mail, addressed to: SOLICITOR GENERAL OF THE UNITED STATES, Room 5614,
Department of Justice, 950 Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001, this 5th
day of August, 2020.
____________________________
/s/
DAVID J. JOFFE, ESQUIRE

2

Case: 19-15022

Date Filed: 01/06/2020

Page: 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

January 06, 2020
David Jonathon Joffe
Joffe Law, PA
110 SE 6TH ST STE 1700
FORT LAUDERDALE, FL 33301-5047
Appeal Number: 19-15022-H
Case Style: USA v. Malik Timbers
District Court Docket No: 2:18-cr-00190-SPC-MRM-7
Party To Be Represented: Malik Timbers
Dear Counsel:
We are pleased to advise that you have been appointed to represent on appeal the indigent
litigant named above. This work is comparable to work performed pro bono publico. The fee
you will receive likely will be less than your customary one due to limitations on the hourly rate
of compensation contained in the Criminal Justice Act (18 U.S.C. ยง 3006A), and consideration
of the factors contained in Addendum Four ยง (g)(1) of the Eleventh Circuit Rules.
Supporting documentation and a link to the CJA eVoucher application are available on the
internet at http://www.ca11.uscourts.gov/attorney-info/criminal-justice-act. For questions
concerning CJA eVoucher please contact our CJA Team by email at
cja_evoucher@ca11.uscourts.gov or phone 404-335-6167. For all other questions, please call
the "Reply To" number shown below.
Every motion, petition, brief, answer, response and reply filed must contain a Certificate of
Interested Persons and Corporate Disclosure Statement (CIP). Appellants/Petitioners must file a
CIP within 14 days after the date the case or appeal is docketed in this court;
Appellees/Respondents/Intervenors/Other Parties must file a CIP within 28 days after the case
or appeal is docketed in this court, regardless of whether appellants/petitioners have filed a CIP.
See FRAP 26.1 and 11th Cir. R. 26.1-1.
On the same day a party or amicus curiae first files its paper or e-filed CIP, that filer must also
complete the court's web-based CIP at the Web-Based CIP link on the court's website. Pro se

Case: 19-15022

Date Filed: 01/06/2020

Page: 2 of 2

filers (except attorneys appearing in particular cases as pro se parties) are not required or
authorized to complete the web-based CIP.
Your claim for compensation under the Act should be submitted within 60 days after issuance
of mandate or filing of a certiorari petition. We request that you enclose with your completed
CJA Voucher one additional copy of each brief, petition for rehearing, and certiorari petition
which you have filed. Please ensure that your voucher includes a detailed description of the
work you performed. Thank you for accepting this appointment under the Criminal Justice Act.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Gerald B. Frost, H
Phone #: (404) 335-6182
CJA-1 Appointment of Counsel Letter

